No. 20AilD
INTHE

~upreme ~ourt of tbe Wniteb ~tateS'
COREY JOHNSON,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33. l(h), I hereby certify that the
Unopposed Motion for Leave to File Brief of the Constitution Project as Amicus
Curiae in Support of Applicant and the Brief of the Constitution Project as Amicus
Curiae in Support of Applicant, in Johnson v. United States of America, No.
complies with the word limitations. The unopposed motion contains

20Al3£?

1ilf

and the amicus brief in support of applicant contains 5, <J&~ words.
I declare under penalty of perjury that the foregoing is true and correct.

Date: January 14, 2021

words

